Eleventh Circuit’s decision below

United States v. Ross, 807 Fed.Appx. 984 (2020)

807 Fed.Appx. 984
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Jermaine Isaac ROSS, Defendant-Appellant.
No. 18-13778
|
Non-Argument Calendar
|
FILED March 17, 2020

in indictment, admitted to, or submitted to jury and proven
beyond reasonable doubt;
[6] prior Florida convictions under statute prohibiting person
from selling, manufacturing, delivering, or possessing with
intent to sell, manufacture, or deliver, controlled substance,
were convictions for “serious drug offense,” within meaning
of Armed Career Criminal Act.
Affirmed.
Procedural Posture(s): Appellate Review; Sentencing or
Penalty Phase Motion or Objection.
West Headnotes (7)
[1]

colloquy.

Holdings: The Court of Appeals held that:
[2]

[4] Florida informations charging defendant with serious drug
offenses were

Shepard-approved;

[5] neither Fifth nor Sixth Amendment required that fact
of defendant's six prior drug convictions had to be alleged

Weapons

18 U.S.C.A. § 922(g)(1).

Miscellaneous particular issues

Possession of ammunition by convicted felon
required proof that defendant knew he was felon

[2] plain error in district court's discussion of elements
during plea colloquy, during which it omitted element that
government had to prove that defendant knew he was felon
at time of possession, did not affect defendant's substantial
rights;
[3] Government established minimal nexus of ammunition in
defendant's possession and interstate commerce, as required
to establish factual basis of plea;

Arraignment and plea

Defendant's claim that government had to prove
that he knew he was convicted felon at time
he possessed ammunition was reviewable for
plain error on direct appeal from judgment
of sentence on guilty plea to possession of
ammunition by convicted felon, where he failed
to raise objection to factual basis of plea, or to
district court's discussion of elements during plea

Synopsis
Background: Defendant was convicted on guilty plea in
the United States District Court for the Middle District of
Florida, Susan Bucklew, Senior District Judge, of possession
of ammunition by convicted felon, and was sentenced as
armed career criminal. Defendant appealed.

[1] possession of ammunition by convicted felon required
proof that defendant knew he was felon at time of possession;

Criminal Law

at time of possession.
(1).

[3]

Criminal Law

18 U.S.C.A. § 922(g)

Arraignment and plea

Plain error in district court's discussion of
elements of possession of ammunition by
convicted felon during plea colloquy, during
which it omitted element that government had
to prove that defendant knew he was felon at
time of possession, did not affect defendant's
substantial rights, given that defendant had six
prior narcotics convictions.
922(g)(1).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18 U.S.C.A. §

1

1a

United States v. Ross, 807 Fed.Appx. 984 (2020)

proven beyond reasonable doubt. U.S. Const.
[4]

Criminal Law
for Entry

Government established minimal nexus of
ammunition in defendant's possession and
interstate commerce, as required to establish
factual basis of plea for possession of
ammunition by convicted felon, insofar as
defendant failed to object to fact asserted
in presentence investigation report (PSI) that
ammunition that defendant possessed in Florida
had been manufactured in Georgia.
U.S.C.A. § 922(g)(1).

[5]

Amends. 5, 6;

Requisites and Proceedings

Sentencing and Punishment
conviction or adjudication

18

Fact of prior

[7]

18 U.S.C.A. § 924(e)(1).

Sentencing and
Punishment
Miscellaneous particular
offenses
Prior Florida convictions under statute
prohibiting person from selling, manufacturing,
delivering, or possessing with intent to sell,
manufacture, or deliver, controlled substance,
qualified as convictions for “serious drug
offense,” that subjected defendant to enhanced
sentencing, under Armed Career Criminal Act,
on guilty plea to possession of ammunition by
convicted felon.
(ii);

18 U.S.C.A. § 924(e)(2)(A)

Fla. Stat. Ann. § 893.13.

Florida informations charging defendant with
Shepardserious drug offenses were
approved, and thus could be relied upon by
district in determining whether six prior drug
convictions arose from separate and distinct
criminal episodes, as would subject defendant
to mandatory minimum sentence of 15 years
as armed career criminal on guilty plea to
possession of ammunition by convicted felon.
18 U.S.C.A. §§ 922(g)(1),

[6]

924(e)(1).

Constitutional Law
offenders

Habitual and career

Constitutional Law

Sentencing

Jury

Weapons

Sentencing and Punishment
special allegations or charges

Necessity of

Sentencing and Punishment
Existence
and eligibility of prior conviction
Neither Fifth nor Sixth Amendment required that
fact of defendant's six prior drug convictions,
which served as predicate “serious drug
offenses” to subject defendant to mandatory
minimum sentence of 15 years on guilty plea
to possession of ammunition by convicted felon,
under Armed Career Criminal Act, be alleged in
indictment, admitted to, or submitted to jury and

Attorneys and Law Firms
*985 Jennifer Waugh Corinis, U.S. Attorney Service Middle District of Florida, U.S. Attorney's Office, Tampa, F,
for Plaintiff-Appellee
Mara Allison Guagliardo, Tamara E. Theiss, Federal Public
Defender's Office, Tampa, FL, Rosemary Cakmis, Federal
Public Defender's Office, Orlando, FL, for DefendantAppellant
Appeal from the United States District Court for the Middle
District of Florida, D.C. Docket No. 8:17-cr-00292-SCBCPT-1
Before WILSON, JORDAN, and HULL, Circuit Judges.
Opinion
PER CURIAM:
*986 Jermaine Isaac Ross appeals his conviction for
knowingly possessing ammunition after being convicted of a
felony, under

18 U.S.C. § 922(g)(1), and his 180-month

sentence, pursuant to the Armed Career Criminal Act,
18
U.S.C. § 924(e)(1). Following a thorough review of the record
and relevant authorities, we affirm Mr. Ross’ conviction and
sentence.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

2a

United States v. Ross, 807 Fed.Appx. 984 (2020)

I
Mr. Ross plead guilty to knowingly possessing ammunition
after being convicted of a felony. According to the indictment,
federal agents discovered over 100 rounds of ammunition
while executing a search warrant of Mr. Ross’ home.
The agents later determined that the ammunition had been
manufactured in the Philippines, South Korea, Nevada,
Illinois, or Mississippi and, therefore, must have traveled
interstate or internationally to reach Mr. Ross’ home in
Florida. Prior to Mr. Ross pleading guilty, the magistrate
judge explained the elements of a charge under
§ 922(g)
(1) and reviewed the factual basis for Mr. Ross’ plea. Mr.
Ross admitted that he had at least one prior felony conviction
and did not object to any of to the essential elements of his
crime. Mr. Ross, however, did not concede that his prior drug
convictions could be used to enhance his sentence under the
ACCA. See

§ 924(e)(1).

The district court concluded that Mr. Ross’ prior convictions
qualified him as an armed career criminal under the ACCA
and sentenced him to 180 months’ imprisonment, to be
followed by 4 years’ supervised release. Mr. Ross argued
unsuccessfully that he did not qualify for an enhanced
sentence under the ACCA because the government had failed
to prove that he had committed at least three serious drug
offenses on separate occasions.
The presentence investigation report stated that on May 7,
2009, Mr. Ross was convicted of two counts of selling
cocaine in Hernando County, Florida, and that on February
19, 2013, he was convicted of four counts of selling cocaine in
Pasco County, Florida. According to the report, the offenses
leading to Mr. Ross’ 2009 convictions occurred on January
30, 2008, and February 15, 2008, and the offenses leading to
his 2013 convictions occurred on January 23, 2012, January
26, 2012, February 17, 2012, and March 1, 2012. The
district court adopted the facts and guidelines calculations
in the presentence investigation report and overruled Mr.
Ross’ objection, concluding that Mr. Ross qualified under
the ACCA because his prior drug offenses occurred on six
separate occasions. It based the date of Mr. Ross’ prior
offenses on state-court charging documents for each offense.

II
Mr. Ross raises several arguments on appeal.
Challenging his conviction, Mr. Ross argues that
§ 922(g)
(1) requires the government to prove that he knew that he
was a convicted felon at the time he possessed ammunition.
Mr. Ross also asserts that § 922(g) violates the Commerce
Clause on its face and as applied because his conduct was
purely intrastate. We review these arguments for plain error
because Mr. Ross raises them for the first time on appeal. See
United States v. Wright, 607 F.3d 708, 715 (11th Cir. 2010).
Mr. Ross also raises three challenges to his sentence under the
ACCA. He argues that the that the district court erred by (1)
relying on dates alleged in state-court charging documents to
conclude that his *987 prior drug offenses were committed
on separate occasions; (2) basing his ACCA enhancement on
facts that were not charged in the indictment or proven to a
jury beyond a reasonable doubt; (3) ruling that his convictions
under
Fla. Stat. § 893.13 were serious drug offenses for
ACCA purposes. We review these arguments de novo. See
United States v. Sneed, 600 F.3d 1326, 1330 n.5 (11th Cir.
2010);

United States v. Weeks, 711 F.3d 1255, 1259

(11th Cir. 2013);
United States v. Braun, 801 F.3d 1301,
1303 (11th Cir. 2015).

A
[1]
[2] In relevant part,
§ 922(g) makes it unlawful
for nine categories of people, including convicted felons
and unlawful aliens, “to possess in or affecting commerce,
any firearm or ammunition[.]”

§ 922(g)(1), (5). Mr. Ross

contends that for a conviction under
§ 922(g)(1), the
government must prove that the defendant knew that he was
a convicted felon when he possessed ammunition. Mr. Ross,
however, did not object to the factual basis for his guilty
plea. Nor did he object to district court’s discussion of
§
922(g)(1)’s elements during the Rule 11 plea colloquy, at
which the court stated that the government would only be
required to prove that he was a felon and that he knowingly
possessed ammunition affecting interstate commerce. As

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

3a

United States v. Ross, 807 Fed.Appx. 984 (2020)

noted, therefore, we review Mr. Ross’
for plain error.

§ 922(g) conviction

Plain error occurs if (1) there was error, (2) that was plain,
(3) that affected the defendant’s substantial rights, and (4) that
seriously affected the fairness, integrity, or public reputation
of judicial proceedings. See Wright, 607 F.3d at 715. “A plain
error is an error that is obvious and is clear under current law.
And there can be no plain error where there is no precedent
from the Supreme Court or this Court directly resolving
United States v. Lange, 862 F.3d 1290, 1296 (11th
it.”
Cir. 2017) (citations and quotation marks omitted). Stated
differently, where Supreme Court precedent is materially
different from the appellant’s case, it does not establish plain
United States v. Humphrey, 164 F.3d 585, 588

error. See

(11th Cir. 1999). See also
United States v. Hunerlach, 197
F.3d 1059, 1069 (11th Cir. 1999) (finding no plain error where
binding precedent was factually dissimilar).
After briefing was completed in this appeal, the Supreme
Court held, in
Rehaif v. United States, ––– U.S. ––––,
139 S. Ct. 2191, 204 L.Ed.2d 594 (2019), that “in a
prosecution under
18 U.S.C. § 922(g) and
§ 924(a)
(2), the Government must prove both that the defendant
knew he possessed a firearm and that he knew he belonged
to the relevant category of persons barred from possessing
a firearm.”

Id. at 2200. The defendant in

Rehaif

was convicted under
§ 922(g)(5)(A)—which prohibits
an unlawful alien from possessing a firearm—and the
Supreme Court stated that it “express[ed] no view ... about
what precisely the Government must prove to establish a
defendant’s knowledge of status in respect to other
922(g) provisions not at issue here.”

§

Id.

[3]
Rehaif establishes error that was plain—the first two
elements of plain error—but we decline to reverse Mr.
Ross’

§ 922(g)(1) conviction. A missing element can be

subjected to harmless-error analysis, see
United States v.
Browne, 505 F.3d 1229, 1267 (11th Cir. 2007), and here Mr.
Ross had six prior narcotics convictions. Given those prior
convictions, it is difficult to believe that Mr. Ross was not
aware that he was a felon. See
Neder v. United States, 527
U.S. 1, 19, 119 S.Ct. 1827, 144 L.Ed.2d 35 (1999) (asking

“whether the record contains evidence that could rationally
*988 lead to a contrary finding with respect to the omitted
element”). As a result, any error did not affect Mr. Ross’
substantial rights or seriously affect the fairness, integrity,
or public reputation of judicial proceedings. See Wright, 607
F.3d at 715.

B
[4] Mr. Ross’ second argument, that
§ 922(g) is
unconstitutional because it exceeds Congress’ authority under
the Commerce Clause, is foreclosed by binding precedent.
In Wright, 607 F.3d at 715–16, we rejected a similar facial
§ 922(g). See also
United
and as-applied challenge to
States v. McAllister, 77 F.3d 387, 389–90, 391 (11th Cir.
1996). Under
§ 922(g), the government need only prove
a “minimal nexus” to interstate commerce, which it may
accomplish by demonstrating that the firearm or ammunition
was manufactured outside of the state where the offense took
place. See Wright, 607 F.3d at 715–16. Here, Mr. Ross did not
object to the facts in his PSI establishing that the ammunition
was manufactured outside of Florida. He therefore “has not
shown the [d]istrict [c]ourt committed error, let alone plain
error, on this issue.” United States v. Longoria, 874 F.3d 1278,
1283 (11th Cir. 2017) (per curiam) (ruling that the defendant’s
“Commerce Clause challenge to
merit”).

§ 922(g) [was] without

C
[5] Under the ACCA, a defendant convicted under
§
922(g) is subject to a mandatory minimum sentence of 15
years’ imprisonment if he or she has three prior convictions
for a violent felony or a serious drug offense that were
committed on occasions different from one another. See
§ 924(e)(1). To be committed on different occasions, the
defendant’s prior offenses “must have arisen from ‘separate
and distinct criminal episodes’ and be for ‘crimes that are
temporally distinct.’ ” Longoria, 874 F.3d at 1281 (quoting
Sneed, 600 F.3d at 1329). Stated differently, successive
crimes qualify as separate criminal offenses under the ACCA,
but simultaneous crimes do not. See id. See also
States v. Pope, 132 F.3d 684, 692 (11th Cir. 1998).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

United

4

4a

United States v. Ross, 807 Fed.Appx. 984 (2020)

Mr. Ross argues that the district court erred in concluding
that his six prior offenses were ACCA predicates because the
respective state-court judgments did not include the specific
dates on which Mr. Ross committed the offenses. The district
court instead relied on state-court charging documents—
called “informations” in Florida—to determine when Mr.
Ross committed his prior offenses. According to Mr. Ross,
the district court was not permitted to rely only on charging
documents to determine the date of a prior offense because
the date is not an element of the crime charged. We disagree.
To establish that a defendant’s prior offenses occurred on
different occasions, the government can rely on documents
approved by the Supreme Court in
Shepard v. United
States, 544 U.S. 13, 125 S.Ct. 1254, 161 L.Ed.2d
205 (2005).
Shepard-approved documents include the
statutory elements of the offense, charging documents, plea
agreements or colloquies, explicit factual findings to which
the defendant assented, or comparable judicial records.
See

id. at 16, 26, 125 S.Ct. 1254. See also

D
[6] Mr. Ross argues that his ACCA sentence violated the
Fifth and Sixth Amendments because the facts related to his
prior offenses were not charged in the indictment, admitted to,
or proven to a jury beyond a reasonable doubt. This argument
is also foreclosed by binding precedent. “Neither the Fifth
Amendment nor the Sixth Amendment prevents the district
court from finding the fact of [Mr. Ross’] prior convictions,
or using them to designate him an Armed Career Criminal.”
United States v. Smith, 775 F.3d 1262, 1266 (11th Cir.
2014) (alterations adopted) (quoting United States v. Gibson,
434 F.3d 1234, 1246 (11th Cir. 2006)).
All elements of a crime, or facts that increase the minimum
or maximum sentence, must be alleged in an indictment
and either admitted to by a defendant or proved to a jury
beyond a reasonable doubt. See
Alleyne v. United States,
570 U.S. 99, 103, 133 S.Ct. 2151, 186 L.Ed.2d 314 (2013);

Sneed,

Apprendi v. New Jersey, 530 U.S. 466, 476, 490, 120 S.Ct.

600 F.3d at 1332–33. In
Weeks, 711 F.3d at 1259,
we said that “for ACCA purposes, district courts may
determine both the existence of prior convictions and the
factual nature of those convictions, including whether they
were committed on different occasions, so long as they

2348, 147 L.Ed.2d 435 (2000). But in
AlmendarezTorres v. United States, 523 U.S. 224, 227, 118 S.Ct. 1219,
140 L.Ed.2d 350 (1998), the Supreme Court recognized an

limit themselves to
Shepard-approved documents.” We
therefore held that state-court charging documents, indicating
that the defendant’s *989 prior offenses were committed
on separate days, “were sufficient to establish that one of
those offenses was temporally distinct for ACCA purposes.”
Id. at 1261. See also Longoria, 874 F.3d at 1283
(holding that the district court could rely on non-elemental
facts in Shepard-approved documents to determine whether
prior offenses were committed on separate occasions).
Under our prior panel precedent rule, a prior case’s holding
is binding on all subsequent panels unless it is overruled or
undermined to the point of abrogation by the Supreme Court
or by our Court sitting en banc. See United States v. Archer,
531 F.3d 1347, 1352 (11th Cir. 2008). Based on our opinion
in
Weeks, 711 F.3d at 1261, the district court did not
err in relying on state-court charging documents to conclude
that Mr. Ross’ prior narcotics offenses were committed on six
separate occasions.

exception for prior convictions. Based on

Almendarez-

Torres, we ruled in
Smith, 775 F.3d at 1266, that the
district court did not violate the Fifth or Sixth Amendments
by sentencing the defendant under the ACCA based on prior
convictions that were not charged in the indictment, admitted
to by the defendant, or proven to a jury. And, in Longoria,
874 F.3d at 1283, we held that the district court did not err
in finding as fact the dates of the defendant’s prior offenses
to conclude that the offenses were committed on separate
occasions. See also United States v. Overstreet, 713 F.3d 627,
635 (11th Cir. 2013);

Weeks, 711 F.3d at 1259.

Based on Longoria, 874 F.3d at 1283, and Smith, 775 F.3d
at 1266, the district court did not err in finding as fact the dates
of Mr. Ross’ prior offenses.

E
[7] In addition to being committed on separate occasions, a
defendant’s prior offenses must qualify as a violent felony

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

5a

United States v. Ross, 807 Fed.Appx. 984 (2020)

or a serious drug offense to justify an ACCA enhancement.

775 F.3d at 1268). The Supreme Court recently ruled that

§ 924(e)(1). State offenses qualify as serious drug
See
offenses if the offense involved manufacturing, distributing,
or possessing with intent to manufacture or distribute,
a controlled substance for which a maximum term of
imprisonment of ten years or more is prescribed by law. See

§ 924(e)(2)(A)
the definition of “serious drug offense” in
(ii) requires only that the state offense involved the conduct
specified in the statute; it does not require that the state offense

§ 924(e)(2)(A)(ii).

(2020) (rejecting mens rea argument concerning

Mr. Ross argues that his convictions under
Fla. Stat. §
893.13 are not serious drug offenses because, at the time
of his *990 convictions, the Florida statute did not require
proof of the same mens rea element as the federal controlled
substance statute—i.e., knowledge of the illicit nature of the
controlled substance. See 18 U.S.C. § 841(a)(1). We rejected
this argument in

Smith, 775 F.3d at 1267–68, and held

that convictions under

Fla. Stat. § 893.13(1) are serious

drug offenses under the ACCA. See also
United States
v. Phillips, 834 F.3d 1176, 1184 (11th Cir. 2016) (“[W]e
have held that possessing cocaine with the intent to sell is
a ‘serious drug offense’ even though the Florida legislature
removed a mens rea element in 2002.”) (citing
End of Document

match certain generic offenses. See Shular v. United States,
––– U.S. ––––, 140 S. Ct. 779, 785–787, 206 L.Ed.2d 81

§ 893.13).
argument.

Smith and

Fla. Stat.

Shular foreclosed Mr. Ross’

III
For the forgoing reasons, we affirm Mr. Ross’ conviction and
180-month sentence.
AFFIRMED.
All Citations
807 Fed.Appx. 984

Smith,
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

6a

District Court’s sentencing decision

Case 8:17-cr-00292-SCB-CPT Document 60 Filed 10/19/18 Page 1 of 28 PageID 2871

1
2

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

3

Docket No. 8:17-cr-292-T-24CPT

4
5
6
7
8
9
10
11

. . . . . . . . . . . . . . .
:
:
UNITED STATES OF AMERICA,
:
:
Plaintiff,
: Tampa, Florida
: August 23, 2018
v.
: 9:00 a.m. - 9:44 a.m.
:
:
JERMAINE ISAAC ROSS,
:
Defendant.
:
:
. . . . . . . . . . . . . . .

12
13

TRANSCRIPT OF SENTENCING
BEFORE THE HONORABLE SUSAN C. BUCKLEW
UNITED STATES DISTRICT JUDGE

14
15

APPEARANCES:

16

Counsel for Plaintiff:

Carlton Curtiss Gammons
Assistant United States Attorney
400 North Tampa Street, Suite 3200
Tampa, Florida 33602

Counsel for Defendant:

Tamara Theiss

17
18
19

Adrian E. Burden
Assistant Federal Defenders

20

400 North Tampa Street, Suite 2700

Tampa, Florida

33602

21
Court Reporter:
22
23

Nikki L. Peters, RPR, CRR, CRC, FPR
Federal Official Court Reporter
801 North Florida Avenue, Second Floor
Tampa, Florida 33602
courttranscripts@outlook.com

24
25

Proceedings recorded by mechanical stenography.
Transcript produced by Computer-Aided Transcription.
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

7a

18
Case 8:17-cr-00292-SCB-CPT Document 60 Filed 10/19/18 Page 18 of 28 PageID 304

** * *
1

MR. GAMMONS:

He cites United States v. Smith at

2

775 F.3d 1262.

3

Circuit.

4

argument, that because of the mens rea that it wasn't

5

applicable.

6

was rejected.

7

That's a 2014 case from the Eleventh

In that case, the defendant made the same

That argument was considered, and that argument
And I believe that case is applicable here.

I'm happy to answer any other questions that the

8

Court has.

9

of the law, that these objections are not well-taken and

However, I think that based on the current state

10

should be overruled.

11

THE COURT:

12

Well, let me take them one at a time.

13

And we'll start first with the offenses on

Okay.

Thank you.

14

separate occasions.

15

informations and copies of judgments for drug offenses

16

committed on -- according to the information -- six

17

different occasions.

18

about the 30th day of January 2008.

19

date in it.

20

in which he entered a plea of guilty to the crime, was found

21

guilty, adjudicated guilty, and was sentenced to 30 months.

22

I have a second information for a sale of cocaine

23

pursuant to Florida Statute 893.032(a)(4) and 893.131(a)(1)

24

which is -- occurs on February the 15th, 2008.

25

a copy of the judgment that says he entered a plea of guilty

I have in front of me copies of

The first is a sale of cocaine on or
The information has the

I also note that I have a copy of the judgment

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

I have also

8a

19
Case 8:17-cr-00292-SCB-CPT Document 60 Filed 10/19/18 Page 19 of 28 PageID 305

1

to the sale of cocaine and was sentenced to a term of 30

2

months.

3

I have a copy of an information that was filed in

4

State court again, and it charges sale of cocaine.

5

is the 17th day of February 2012.

6

judgment which indicates he entered a plea of nolo

7

contendere and the Court adjudicated him guilty of the sale

8

of cocaine, and he was sentenced on that.

9

The date

I have a copy of the

I have another information that says that Mr. Ross

10

was charged by way of an information for sale of cocaine on

11

the 23rd day of January.

12

entered a plea of nolo contendere to that charge, the sale

13

of cocaine, and he was sentenced on that.

14

That's when it occurred, 2012.

He

I have a copy of an information that says that

15

Jermaine Isaac Ross was charged on -- by way of information

16

on the 26th day of January 2012 with committing -- I'm

17

sorry.

18

sale of cocaine.

19

was sentenced.

20

The crime occurred on the 26th day of January 2012,
He pled nolo contendere to that charge and

I have a copy of an information that says that he

21

committed the crime of sale of cocaine on the 1st day of

22

March in 2012.

23

cocaine and was sentenced on that crime.

24
25

He pled nolo contendere to the sale of

So I have in front of me a copy of six judgments.
I have a copy of six informations that allege the sale of
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

9a

20
Case 8:17-cr-00292-SCB-CPT Document 60 Filed 10/19/18 Page 20 of 28 PageID 306

1

cocaine on different dates.

2

offenses -- and there are six of them -- the sales of

3

cocaine, occurred on separate occasions.

4

it matters that he pled nolo contendere as opposed to

5

guilty.

6

the date in it.

7
8

So I think that the criminal

And I don't think

And I think I can rely on the information that has

I don't think that the fact that the date is not
an element of the crime makes any difference.

9

As far as the use of the Florida drug offenses and

10

whether or not they are serious offenses for purposes of the

11

Armed Career Offender Act, I think Smith has answered that

12

question, United States v. Smith, 775 F.3d 1262, in which

13

the Court held that the defendant's prior Florida drug

14

convictions were serious drug convictions or offenses for

15

purposes of the Armed Career Criminal Act.

16

And, finally, as far as the constitutional

17

argument, I think Smith also answers that, which says:

18

Government is not required to allege in its indictment and

19

prove beyond a reasonable doubt the defendant had prior

20

convictions for a district court to use those convictions

21

for purposes of sentencing or enhancing a sentence."

22

"The

And the other thing that really was objected to,

23

and really wasn't addressed, was that there are facts in the

24

narrative sections of paragraphs 33, 51, 53, 56 through 59.

25

I'm going to overrule that objection as well.
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

10a

21
Case 8:17-cr-00292-SCB-CPT Document 60 Filed 10/19/18 Page 21 of 28 PageID 307

1
2

The criminal history and whether that's accurate,
in paragraphs 44 and 45, has been withdrawn.

3

So I'm going to overrule the objections that are

4

remaining and find that the presentence report has properly

5

treated Mr. Ross as an armed career offender based on six

6

prior drug convictions occurring on six separate occasions.

7

And that's it.

8
9
10

Tell me -- there's a mandatory minimum of 180
months.

Mr. Gammons, are you seeking a sentence beyond the

180 months?

11

MR. GAMMONS:

12

THE COURT:

13
14

No, ma'am.
All right.

Ms. Theiss, is there

anything else you would like to say?
MS. THEISS:

With respect to 3553(a), Your Honor,

15

the only other sort of outstanding issue, given his pending

16

matter in Pasco County, was the request to -- for this Court

17

to order that his federal sentence for his felon in

18

possession charge be run concurrent to any pending matter

19

that he may have in Pasco County.

20

that proposition that the Court can do it at this point.

21

We did cite Setser for

As I noted in his sentencing memorandum, I

22

actually went to Pasco County last week to get a little bit

23

more information about their position and to essentially

24

change his primary custody to federal custody so that he can

25

access programming and what's available in the Bureau of
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

11a

